2311 Douglas Street
Omaha, Nebraska 68102-1214

@OCKLE

Le g al Brie fg E-Mail Address;

Est. 1923 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-289

COUNTY OF SAN DIEGO and
ERNESTO BANUELOS,
Petitioners,

v.

JAMES SOLER,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the RESPONDENT JAMES
SOLER’S BRIEF IN OPPOSITION in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 8983 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 14th day of October, 2019.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
Ser , Collie Onda h,
My Commission Expires Nov 24, 2020 e

Notary Public Affiant 38775

 

 
